CREDIT CARD AGREEMENT & DISCLOSURE STATEMENT
This Agreement applies to the VISA and/or MasterCard credit Card and Credit Devices issued to you by
TIB The Independent BankersBank, N.A., Georgia Branch, although the name on your Card may be that
of a different financial institution. Any Card or Credit Device issued to you by us remains our property
and must be returned to us or to anyone we designate, upon request. Retaining, signing or using, or
permitting others to use, the Card or Credit Device shall constitute the equivalent of signing this
Agreement and such retaining, signing or using means you agree to be bound by the terms of this
Agreement. The Application you submitted for the Account is hereby incorporated into and made a part
of this Agreement. This Agreement begins on the earlier of (i) the date you sign or otherwise submit an
Application that is approved by us or (ii) the first date you or someone authorized by you uses the
Account in a transaction that we approve (in NY, the first date you or someone authorized by you signs
a sales slip or memorandum or the first date that another document is issued to you or someone
authorized by you as evidence of a transaction on the Account that we approve).
Definitions. In addition to other terms that may be defined in this Agreement, the following terms when
used in this Agreement have the following definitions:
1.

2.

"Account" means the open-end revolving credit account established pursuant to your Application
and this Agreement to which charges are posted based on use of a Card, information from a Card,
Credit Device, or any other device or procedure by which the Account may be accessed in the
future.
"Agreement" means this Credit Card Agreement plus the Disclosure Statement, which is
contained in the same envelope as, and folded together with, this Credit Card Agreement and
which provides information on the periodic rate, the Annual Percentage Rate, the Interest Charge
and balance on which it is determined, any Other Charges, cash advance fees, balance transfer
fees, and any grace period applicable to the Account. The Disclosure Statement is incorporated
herein by reference as if repeated verbatim herein. If any provision of this Credit Card Agreement
is inconsistent with any provision of the Disclosure Statement, the provision of the Disclosure
Statement controls.

3.

"Application" means the application for credit you completed and returned to the Sponsoring
Bank to request that we extend credit to you under the Account.

4.

"Authorized User" means any person you permit to use the Account or who has apparent
authority to use the Account.

5.

"Card" means the VISA and/or MasterCard credit card(s) issued to you by us, and any future
credit card(s) issued to you in connection with the Account. If you applied for more than one
type of Card, this Agreement is a separate Agreement for each Card.

6.

“Cash Advance” means the amount requested by you and advanced to you by any method
approved by us according to the terms of this Agreement in cash or cash equivalent items
(including, but not limited to, money orders, travelers checks, lottery tickets, casino chips,
vouchers redeemable for cash, or racetrack wagers).

7.

"Credit Device" means any device such as a blank check, payee-designated check, "convenience"
or "special" check, blank draft or other order, or any other device or item which may, at our
discretion and pursuant to procedures we may adopt from time to time, be issued by us to you to
access the Account.

8.

"Credit Limit" means the total dollar amount of the Account which we approved and which you
may borrow against according to the terms of this Agreement.

9.

"Index" means the Prime Rate (the base rate on corporate loans posted by at least 70% of the 10
largest U.S. banks) published in the Wall Street Journal on the 25th day of each month or the
business day preceding the 25th day if that day falls on a weekend or a holiday recognized by the
Board of Governors of the Federal Reserve System. Changes in the Index will take effect
beginning with the first billing cycle in the month following a change in the Index. Increases or
decreases in the Index will cause the APR and periodic rate to fluctuate, resulting in increased or
decreased Interest Charges on the Account.

10.

“Other Charges” means the charges listed in the section of this Agreement with such caption.

11.

"We," "us," and "our" mean TIB The Independent BankersBank, N.A., Georgia Branch, 1550 N.
Brown Road, Suite 150, Lawrenceville, Georgia 30043.

12.

"You" and "your" refer to each person who signed an application for the Account, each person
who signs or uses the Card or a Credit Device, and any Authorized User.

Purchases, Cash Advances and Balance Transfers. You request and authorize us to extend credit to
you under the Account as follows: (1) goods and services may be purchased or leased by use of the
Card from any seller or vendor who honors the Card ("Purchases"); (2) "Cash Advances" may be
obtained (a) when you complete a written request on a form furnished to you by us or any other financial
institution we approve; (b) using the Card at any automatic teller machine which accepts the Card; or (c)
using a Credit Device to pay for Purchases or, when allowed, to receive cash. (3) “Balance Transfers”
may be obtained when you complete a request. We are not responsible for any person or entity refusing
to accept the Card or any Credit Device for Purchases or Cash Advances.
Promise to Pay. You promise to pay us for all Purchases made by you and for all Cash Advances and
Balance Transfers received by you except as limited in this Agreement regarding your liability for
unauthorized use of a Card or Credit Device. You shall be jointly and severally liable for all amounts
due from you under this Agreement for Purchases, Cash Advances, Balance Transfers, Interest Charges,
and Other Charges.
Special Checks. If Special Checks are issued from time to time for use with your Account, you may
obtain what is deemed to be a Cash Advance under the Account by writing a check. Each Special Check
must be in a form we have issued to you and must be imprinted with your name and the Account
number. Special Checks may be used only by a person whose name is printed on the Check and must be
completed and signed in the same way as a regular personal check. You agree not to use your Special
Checks to purchase or carry securities or to pay amounts you owe us under this Agreement. We are not
obligated to pay a Special Check (a) if your resulting Account balance would exceed the Credit Limit,
(b) if the Check is dated more than 6 months before it was presented to us for payment, (c) if a Special
Check or Card has been reported lost or stolen, (d) if you are in default under this Agreement or a loan

G-17499

agreement with another lender, (e) if you or we have terminated your ability to receive further credit
under this Agreement, (f) if you are insolvent, or (g) if your Card has expired. The amount of each
Special Check paid by us, even if we are not obligated to pay it, will be a Cash Advance. Checks paid by
us will not be returned to you with your monthly billing statement, but information about them will
appear on such statement. You agree you will promptly review your monthly billing statement to
discover any unauthorized or altered Special Checks. You cannot put a stop-payment order on a Special
Check.
Refunds and Adjustments. Any refund, adjustment, or credit allowed by any seller or other person or
entity shall not be by cash but rather by a credit to the Account appearing on your monthly billing
statement.
Monthly Billing Statements. Each month we will send you a monthly billing statement reflecting all
Purchases, Cash Advances, Balance Transfers, Interest Charges and Other Charges pursuant to this
Agreement for the prior monthly period. Such statements shall be deemed correct and accepted by you
unless you notify us to the contrary in writing within 60 days of our mailing such statement to you.
Payments on the Account. Your payment under the Account must be made on or before the "Payment
Due Date" reflected on your monthly billing statement. Your payment must be either the full amount
billed or, at your option, an installment equal to at least the required "Minimum Payment Due" stated on
the billing statement. The minimum payment will equal the "New Balance" shown on your statement if
that amount is less than $15. If the New Balance exceeds $15, the minimum payment will equal the
greater of 3% of the New Balance or $15, plus the entire portion of the New Balance in excess of your
Credit Limit, plus any amount past due.
Payments must be made in U.S. dollars drawn on a U.S. bank. Transactions in foreign currencies will be
converted to U.S. dollars at the exchange rate used at the time of the conversion. The conversion may
occur after the transaction date and the conversion rate may differ from the rate of exchange in effect at
the time of the transaction. You agree to pay the converted amount to us in U.S. dollars, plus any charge
for the conversion or processing that may be imposed.
All payments on the account must be made at the address shown on your monthly billing statement and
are considered to have been made on the date received at that address. If payment is made at any
location other than the designated address, credit for such payment may be delayed for up to 5 days. As
allowed by law, we may accept payments marked "payment in full" (or words of similar intent) without
losing any of our rights to collect the full balance due under the Account and this Agreement. We will
apply your payments to the unpaid balance of the Account in the order and manner we decide, in our
sole discretion.
Payment Holidays. At our option we may permit you from time to time to skip making the Minimum
Payment Due for a specified billing cycle (referred to as a "payment holiday"). Even if you accept such
a payment holiday, we will continue to assess Interest Charges on the unpaid balance of the Account as
disclosed in the Insert. Any payment holiday we permit will not affect the terms of this Agreement. The
terms of this Agreement remain in force regardless of whether you accept a payment holiday.
Credit Limit. You agree not to use or permit others to use the Card, information from the Card, or a
Credit Device if such use would cause the balance of the Account to exceed the Credit Limit we set from
time to time. The initial Credit Limit for the Account is shown on the material accompanying the Card
before the Account is used and will also be disclosed on each monthly billing statement for the Account.
We may, at our option, extend credit under the Account which exceeds the Credit Limit. If we do so,
you may be charged an over-the-limit fee for exceeding the Credit Limit as provided in this Agreement
and you agree to immediately pay the excess which we advanced to you over either of the applicable
limits. We are not obligated to allow any Purchase or Cash Advance which will exceed your Credit
Limit, and if we do, we are not obligated to do so at a later time. You agree we may change your Credit
Limit or cancel the Account if you exceed the Credit Limit.
Transactions Made in Foreign Currencies. If a transaction is made in a foreign currency, we and
MasterCard International or VISA International, depending on which card is used, will convert the
transaction into a U.S. dollar amount. MasterCard and VISA will act in accordance with their operating
regulations or conversion procedures in effect at the time the transaction is processed. Currently, their
regulations and procedures provide that the currency conversion rate they use, to determine the
transaction amount in U.S. dollar, is either (a) a wholesale market rate, or (b) a government-mandated
rate in effect one day prior to the processing date. MasterCard and VISA increase this conversion rate by
one percent (1%) and keep this increase as compensation for performing the currency conversion
service. We will charge you one percent (1%) of the U.S. dollar amount of the transaction converted
from a foreign currency. The currency conversion rate calculated in this manner that is in effect on the
processing date may differ from the rate in effect on the transaction date or posting date.
Other Charges. You agree we may assess, in addition to the Interest Charge, the Other Charges below
which charges will be earned when assessed and are not subject to refund or rebate. The following fees
may be added, as applicable, to the Account and treated as a Purchase as indicated on the Insert:
1.

Annual Fee. A non-refundable annual membership fee may be charged to the Account during the
month following issuance or re-issuance of the Card and will be posted annually on the
anniversary date of the opening of the Account. The annual membership fee is not refundable
even if the Account is closed for any reason by either you or us, and the fee is a condition of
maintaining the Account whether or not you use the Account by making Purchases or receiving
Cash Advances.

2.

Late Fee. If the minimum required payment is not received by the Payment Due Date for that
billing cycle, we may assess a late charge on the Account. The late charge will be five percent
(5%) of the past-due amount or $15, whichever is greater (maximum fee of $25). The $15 dollar
amount may increase each July 1st pursuant to the rule of the Administrator of the Georgia
Department of Consumer Credit.

3.

Returned Payment Fee. We will charge you $10 for each return by a bank or other depository
institution of a dishonored check, negotiable order of withdrawal or share draft issued by you to
us in connection with the Account. This fee will be in addition to all other Interest Charges and
Other Charges we may collect from you and is not subject to refund or rebate.

4.

Pay-by-Phone. If you request an agent assisted payment be made to your Account through an
electronic funds transfer, you agree to pay a fee of $10 in addition to the amount of the payment.

5.

International Transactions Fee. One percent (1%) of the U.S. dollar amount of the transaction
converted from a foreign currency.

6.

Supplemental Convenience Requests. If you request supplemental copies of billing statements,
you will be charged $5 for each. We will not assess you this fee if you request a billing statement
for a billing error/inquiry that you may assert against us under applicable law. If you request
expedited delivery of a Card, you will be charged $25. If you make any other Supplemental
Convenience Requests, you agree to pay our reasonable charges for such request in effect at that
time.

Liability for Unauthorized Use. If any Card is lost or stolen or otherwise may be used without your
permission (express or implied), you must immediately notify us orally or in writing at the following
phone number or address: 1-800-367-7576 or at TIB The Independent BankersBank, N.A., P.O Box
569120, Dallas, Texas 75356-9120. If unauthorized use of a Card occurs before you notify us of the
loss, theft or unauthorized use, you may be liable up to a maximum amount of $50. If unauthorized use
of a Credit Device occurs, you may be liable for all of the unauthorized use.

Termination; Default. We may reduce the Credit Limit or terminate your ability to receive further
credit under this Agreement at any time without notice. You may terminate your ability to receive
further credit under this Agreement by giving us notice of termination and returning to us all Cards and
Credit Devices. Termination by you will be effective on the date we receive written notice from you
along with the Cards and Credit Devices (unless they are lost or stolen, in which case you agree to sign
an affidavit to that effect and stating that no credit received after the date of loss or theft was authorized
by you).

State Law Disclosures. CA Residents: Interest is compounded on unpaid Interest Charges on Purchases,
Cash Advances and Balance Transfers. MD Residents: You have the right under Section 12-510

You will be in default under this Agreement if any of the following events occur: (1) you fail to make
the required payment when due; (2) you fail to perform or abide by any of your agreements or
obligations under this Agreement or any other loan agreement you have with us; (3) you become
insolvent (meaning your liabilities exceed your assets or you are unable to pay your debts as they
become due); (4) any action is taken by or against you under any bankruptcy or insolvency laws; (5) any
attachment or garnishment proceedings are initiated against you; (6) you die or are declared
incompetent; (7) we, in good faith, believe the prospect of your payment or performance under this
Agreement is impaired; or (8) you fail or refuse to provide current financial information to us when we
request it.

of the Commercial Law Code to receive an answer to a written inquiry concerning the
status of your Account. NJ Residents: Because certain provisions of this Agreement are subject to
applicable laws, they may be void, unenforceable or inapplicable in some jurisdictions. None of these
provisions, however, is void, unenforceable or inapplicable in New Jersey.

YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to do if you find a mistake on your statement.
If you think there is an error on your statement, write to us at BBCS, Attn: Dispute Department, 1550
North Brown Road, Suite 150, Lawrenceville, GA 30043 as soon as possible.

On any termination or default, regardless of any unused credit you may have under the Account, all
amounts you owe under the Account and this Agreement will become immediately due and payable in
full. You must also return to us all Cards and Credit Devices issued to you in connection with the
Account. Termination or default shall not release you from any obligation you have incurred under this
Agreement. After termination or default, your obligations and our rights under this Agreement shall
remain effective until the entire outstanding balance of the Account is paid in full.

In your letter, give us the following information:

Attorneys Fees and Costs. To the extent permitted by law, you agree to pay our attorneys fees and
other costs we incur if you are in default and we hire an attorney who is not our salaried employee to
collect amounts you owe under the Account and this Agreement. Amounts you owe for attorneys' fees
will be added to the outstanding balance of the Account as a Purchase whether or not your right to
receive credit has terminated or you are in default.

You must contact us within 60 days after the error appeared on your statement and at least 3 business
days before an automated payment is scheduled, if you want to stop payment on the amount you think is
wrong.

Amendment to this Agreement. This Agreement, and the terms of the Account, may be amended by us
if we send you written notice of the amendment prior to its effective date as required by law. As of the
amendment's effective date, the change in terms will apply to the entire outstanding balance of the
Account as well as Purchases made, Cash Advances and Balance Transfers received after the effective
date of the amendment. If you do not agree to the amendment, your only option is termination under
this Agreement.
Venue and Jurisdiction of Lawsuits. The parties agree, consent and contract that the venue and
jurisdiction of any lawsuit brought by TIB The Independent BankersBank, N.A. to enforce this
agreement or collect any sum or sums of money due and owing under this agreement shall be in Dallas
County, Texas or any county contiguous to Dallas County, Texas.
The parties further agree that any action or cross action brought by a cardholder against TIB The
Independent BankersBank, N.A. regarding this contractual agreement shall be brought in Dallas County,
Texas or any county contiguous to Dallas County, Texas.
Governing Law; Severability. You agree that your obligations under this Agreement represented by
charges to the Account are contracted for and become binding when the sales drafts, credit card slips, or
other Credit Devices are accepted by us and we cause the holders of the same to be paid. You agree that
these events occur in Georgia. This Agreement is subject to federal law and, to the extent not preempted
by federal law, the laws of the State of Georgia (except to the extent that this Agreement can and does
vary from such rules or laws), without regard to conflict of laws principals. If any provision of this
Agreement conflicts with the law, you agree the provision will be viewed as if it was amended to comply
with the law. If that is not possible, then only the provision that conflicts with the law will be deleted.
The remaining provisions of this Agreement will remain effective.
Credit Reports. You agree that we may obtain consumer credit reports from one or more credit
reporting agencies or others in connection with opening or maintaining the Account, increasing the
Credit Limit under the Account, or making any extension of credit to you under the Account. We may
also ask you for additional information in connection with the Account and request credit reports to
verify your current credit standing. You agree that we may release information to others, such as credit
reporting agencies, regarding the status and history of the Account. However, we are not obligated to
release any such information unless required by law.
We may report information about your Account to credit bureaus. Late payments, missed payments, or
other defaults on your Account may be reflected in your credit report. If you believe that we have
furnished any inaccurate information relating to your Account to any consumer-reporting agency, you
may notify us by phone or mail at 1-800-367-7576; Card Service Center, PO Box 569120, Dallas, TX
75356. To help us respond to your notification, include your account number, Social Security Number,
the name of the consumer-reporting agency reflecting the inaccurate information, and an explanation of
why you believe the information is inaccurate. You understand that you may also contact the appropriate
consumer-reporting agency directly at the appropriate address and toll-free number: Equifax, P.O. Box
740241, Atlanta, GA 30374, 800.685.1111; Trans Union, P.O. Box 1000, Chester, PA 19022, 800-9168800; or Experian, P.O. Box 2002, Allen, TX 75013, 888.397.3742.
Change in Marital Status. A change in marital status between any of you will not affect the individual
liability of any of you under this Agreement. Your liability for debt incurred after a change in status
does not end until all Cards and Credit Devices are returned to us, even if you give us notice of the
change in status and notice that further use by any person is unauthorized.
Notices. Notices given under this Agreement or relating to the Account will be effective only if given in
writing to us at TIB The Independent BankersBank, N.A., P.O Box 569120, Dallas, Texas 75356-9120,
and to you at your last address shown on our records. You agree to notify us immediately if your
address changes from that show on the application you submitted in connection with opening the
Account.

* Account information: Your name and Account number.
* Dollar amount: The dollar amount of the suspected error.
* Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required
to investigate any potential errors and you may have to pay the amount in question.
What will happen after we receive your letter.
When we receive you letter, we must do two things:
1.
Within 30 days of receiving your letter, we must tell you that we received your letter. We
will also tell you if we have already corrected the error.
2.
Within 90 days of receiving your letter, we must either correct the error or explain to you why
we believe the bill is correct.
While we investigate whether or not there has been an error, we cannot try to collect the amount in
question, or report you as delinquent on the amount. The charge in question may remain on your
statement, and we may continue to charge you interest on that amount. While you do not have to pay
the amount in question, you are responsible for the remainder of your balance. We can apply any
unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
1.
If we made a mistake: You will not have to pay the amount in question or any interest or
other fees related to that amount.
2.
If we do not believe there was a mistake: You will have to pay the amount in question, along
with applicable interest and fees. We will send you a statement of the amount you owe and
the date payment is due. We may then report you as delinquent if you do not pay the amount
we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days
telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without also
reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between
us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Your rights if you are dissatisfied with your credit card purchases.
If you are dissatisfied with the goods or services that you have purchased with your Credit Card, and you
have tried in good faith to correct the problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase. To use this right, all of the following must be true:
1.

2.

3.

The purchase must have been made in your home state or within 100 miles of your
current mailing address, and the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do not
qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in
writing at BBCS, Attn: Dispute Department, 1550 North Brown Road, Suite 150, Lawrenceville,
GA 30043.
While we investigate, the same rules apply to the disputed amount as discussed above. After we
finish our investigation, we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.

DISCLOSURE STATEMENT
The Credit Card Agreement & this Disclosure Statement constitute the Agreement for the Account.

Platinum Cards
Annual
Percentage Rate
(APR) for
Purchases

4.25%

APR for Balance
Transfers and
Cash Advances

4.25%

Paying Interest

For Credit Card
Tips from the
Consumer
Financial
Protection Bureau
Annual Fee

This APR will vary with the market based on
the Prime Rate. a
This APR will vary with the market based on
the Prime Rate. a
Your due date is at least 25 days after the
close of each billing cycle. We will not
charge you any interest on purchases if you
pay your entire balance by the due date each
month. We will begin charging interest on
cash advances and balance transfers on the
transaction date.
To learn more about factors to consider when
applying for or using a credit card, visit the
website of the Consumer Financial Protection
Bureau at
http://www.consumerfinance.gov/learnmore/.

None

Transaction Fees:
International
Transaction

1% of each transaction in U.S. dollars.

Penalty Fees:
Late Payment

Either $15 or 5% of the past-due amount,
whichever is greater (maximum fee of $25).

Returned
Payment

$10

How We Will Calculate Your Balance: We use a method called “average daily balance
(including new purchases).” See your account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise
those rights is provided in the account agreement that will be provided to you before you
begin using your new card.
Prime Rate: The APR will vary based on changes in the Index, the Prime Rate (the base
rate on corporate loans posted by at least 70% of the 10 largest U.S. banks) published in the
Wall Street Journal. The Index will be adjusted on the 25th day of each month or the
business day preceding the 25th day if that day falls on a weekend or a holiday recognized
by the Board of Governors of the Federal Reserve System. Changes in the Index will take
effect beginning with the first billing cycle in the month following a change in the Index.
Increases or decreases in the Index will cause the APR and periodic rate to fluctuate,
resulting in increased or decreased Interest Charges on the Account. As of March 25,
2020, the Index was 3.25%.
a

We add 1.00% to the Prime Rate to determine the APR for Purchases, Balance
Transfers, and Cash Advances. The Account will never have an APR over 21%.
How Interest Charges are Determined & When They are Imposed

Interest Charges on the Account will be figured on each monthly billing statement by
applying the periodic rate to the total Balance Subject to Interest Charges. The periodic rate
used to compute Interest Charges is disclosed above and is a monthly rate which, when
multiplied by 12, equals the APR disclosed above. If you obtain Cash Advances, Balance
Transfers or elect to pay for Purchases in installments, each periodic statement will include

an Interest Charge. There is no minimum Interest Charge. In connection with Cash
Advances and Balance Transfers, the first monthly billing statement after you receive a
Cash Advance or Balance Transfer will include an Interest Charge from the date the
transaction is posted to your Account. There is no period within which you may repay cash
advances or balance transfers in order to avoid an Interest Charge.
Interest Charges will not be imposed on purchases posted to your account in certain
circumstances. For example, assuming that billing cycles begin on the first day and end on
the last day of each calendar month, and the month of June is the “current” billing cycle: if
(1) the purchase balance at the end of the preceding May billing cycle is paid in full by the
payment due date (in June) for the May billing cycle and (2) the purchase balance at the
end of the June billing cycle is paid in full by its payment due date (in July), no Interest
Charges will be imposed on purchases posted to the account during June. However, if the
purchase balance of the May billing cycle is not paid in full by its payment due date in
June, Interest Charges will be imposed on purchases posted to the account in June from the
date of such posting. If the June purchase balance is not paid in full by its payment due
date in July, Interest Charges will be imposed from the first day of the July billing cycle on,
but only on, the portion of June purchases not paid by the payment due date in July.
Any portion of the New Balance appearing on a monthly billing statement (including Cash
Advances, Balance Transfers, Purchases, Interest Charge and Other Charges) which is not
paid in full and credited to the Account by the “Payment Due Date” shown on that
statement becomes part of the “Previous Balance” on your next monthly billing statement.
All payments received by 5:00 p.m. during our normal business day at the address indicated
on the monthly billing statement will be credited to the Account as of the date of receipt of
payment. If payment is made at any location other than such address, credit for the
payment may be delayed up to 5 days.
Method of Computing Balance Subject to Interest Charge
The Balance Subject to an Interest Charge is the sum of the “Average Daily Balance” for
Purchases and the “Average Daily Balance” for Cash Advances and Balance Transfers,
computed as follows:
The Average Daily Balance for Purchases is computed by adding each day’s ending
balance for the current billing cycle (less any Interest Charge included therein and
excluding any Cash Advances and Balance Transfers made during the current billing
cycle), and dividing the total of such balances by the number of days in the billing cycle.
Such total will include Purchases and debit adjustments made during the current billing
cycle only if you have not paid in full the New Balance figure from the previous statement
as indicated by a “Payment” figure equal to or greater than the “Previous Balance” figure
under the Summary of Transactions on the statement for the current billing cycle.
The Average Daily Balance for Cash Advances and Balance Transfers is computed by
adding each day’s outstanding balance of Cash Advances and Balance Transfers charged to
the Account during the current billing cycle, and dividing the total of such balances by the
number of days in the billing cycle.
If the Cash Advance and Balance Transfer portion of the New Balance and the Interest
Charge applicable thereto are not paid in full and credited to the Account by the “Payment
Due Date” shown on the first monthly billing statement to which the Cash Advance and
Balance Transfer is billed, any balance remaining becomes a part of the “Previous Balance”
on Cardholder’s next periodic statement and is computed as part of the Average Daily
Balance for Purchases.
Armed Forces Members and Dependents
Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer
credit to a member of the Armed Forces and his or her dependent may not exceed an
annual percentage rate of 36 percent. This rate must include, as applicable to the credit
transaction or account: The costs associated with credit insurance premiums; fees for
ancillary products sold in connection with the credit transaction; any application fee
charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a
credit card account). To hear this same disclosure and for a general description of your
payment obligations for this credit card account, please call us at 1-866-415-4842.
IMPORTANT: The issuer and administrator of the credit card program is TIB
The Independent BankersBank, N.A. The information about the cost of the Card
described in this table is accurate as of April 1, 2020. This information may
change after that date. To find out what may have changed, call us at 800-3677576 or write TIB The Independent BankersBank, N.A., P.O. Box 569120, Dallas,
Texas 75356-9120.
3217 BP/EMP CD – AP Sys 4193 4974 8601 -Agent 6000 (Rev. 04/20)

